No. 20-601
DANIEL CAMERON, ATTORNEY GENERAL,
ON BEHALF OF THE COMMONWEALTH OF KENTUCKY,

Petitioner,
v.
EMW WOMEN’S SURGICAL CENTER, P.S.C.,
ON BEHALF OF ITSELF, ITS STAFF, AND ITS PATIENTS, ET AL.,

Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, David H. Thompson a
member of the Supreme Court Bar, certify that the BRIEF OF AMICI CURIAE
PHILIP E. BERGER, PRESIDENT PRO TEMPORE OF THE NORTH CAROLINA SENATE, AND TIMOTHY K. MOORE, SPEAKER OF THE NORTH
CAROLINA HOUSE OF REPRESENTATIVES IN SUPPORT OF PETITIONER, in the above entitled case complies with the typeface requirements
of Supreme Court Rule 33.1(b), being prepared in Century Schoolbook 12 point
for the text and 10 point for the footnotes, and that this brief complies with the
word limitation of Supreme Court Rule 33.1(g)(x) (2019), containing 4,479
words, excluding the parts that are exempted by Supreme Court Rule 33.1(d).

Date: June 21, 2021

/s/David H. Thompson
David H. Thompson

